<html>
<title> - RUSSIA AND ARMS CONTROL: EXTENDING NEW START OR STARTING OVER?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
     RUSSIA AND ARMS CONTROL: EXTENDING NEW START OR STARTING OVER?

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 25, 2019

                               __________

                           Serial No. 116-59

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-182PDF            WASHINGTON : 2019                     
                       
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     
                                 
                                     
                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
THEODORE DEUTCH, Florida             ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island        JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas                FRANCIS ROONEY, Florida
DINA TITUS, Nevada                   BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             GREG PENCE, Indiana
DAVID TRONE, Maryland                RON WRIGHT, Texas
JIM COSTA, California                MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas              TIM BURCHETT, Tennessee

                                     
                                     

                    Gabrielle Gould, Staff Director
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Countryman, Thomas, Board Chairman, Arms Control Association.....     7
Creedon, Madelyn, Nonresident Senior Fellow, The Brookings 
  Institution....................................................    21
Mckeon, Brian, Senior Director, Penn Biden Center for Diplomacy 
  and Global Engagement..........................................    28
Karako, Thomas, Senior Fellow, International Security Program, 
  and Director, Missile Defense Project, Center for Strategic and 
  International Studies..........................................    38

                                APPENDIX

Hearing Notice...................................................    60
Hearing Minutes..................................................    61
Hearing Attendance...............................................    62

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Wagner..........................................    63


     RUSSIA AND ARMS CONTROL: EXTENDING NEW START OR STARTING OVER?

                        Thursday, July 25, 2019

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and the Environment,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172, Rayburn House Office Building, Hon. William Keating 
(chairman of the subcommittee) presiding.
    Mr. Keating [presiding]. This hearing will come to order.
    The subcommittee is meeting today to hear testimony on the 
future of the U.S.-Russia arms control, and specifically the 
extension of New START.
    Without objection, all members will have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    I will now make an opening statement, and then, turn it 
over to the ranking member for his opening statement.
    I would like to start off this afternoon with a reminder of 
how we got here. Even as a very young child, I clearly remember 
the Cuban Missile Crisis, as do many of my colleagues. I 
imagine when the United States and the USSR were in a 13-day 
standoff, and then, the presence of the Soviet nuclear armed 
missiles in Cuba was in the air, on the television, and many of 
us suffered, I think, even at early ages the trauma of knowing 
something was going on in our households and knowing how 
concerned our parents were and the whole country was. Many of 
us, including the then-Secretary of Defense Robert McNamara, 
believed we were on the brink of a nuclear war.
    In the aftermath, the United States and the USSR signed the 
Limited Test Ban Treaty, and in the decades that followed, 
negotiated numerous other agreements, including SALT I and II, 
the Anti-Ballistic Missile Treaty, and INF Treaty, and START.
    While none of these agreements were perfect, and both sides 
have continued to develop new and more powerful weapons, our 
arms control regimes have kept us on the brink of mutually 
assured destruction. Today, it is important to take stock of 
how far we have come from the tension and the rampant worry 
about nuclear annihilation that shaped much of the second half 
of the 20th century.
    The United States and Russia are in compliance with New 
START, as multiple administration officials have stated and 
testified previously. And the agreement has effectively reduced 
nuclear arsenals in both countries. Through New START, we have 
also had unprecedented access to transparency around Russia's 
nuclear arsenal. Since the agreement entered into force in 
2011, the United States and Russia have carried out nearly 300 
inspections and more than 18,000 notifications.
    This has meant our military has been better informed about 
the threats we face and how we could prioritize investments in 
defense and readiness. General John Hyten, Commander of the 
United States Strategic Command, told Congress earlier this 
year that he is a, quote/unquote, ``big supporter'' of the 
treaty, and that he saw no reason to withdraw from it, unless 
Russia stops complying. Other leaders, including former 
Chairman of the Joint Chiefs of Staff, Admiral Michael Mullen, 
former Secretary of State George Shultz, and former Secretary 
of Energy Ernest Moniz, have specifically called for extension 
of New START.
    So, in calling the hearing today, I hope to answer one 
question: why would we ever let this agreement lapse? I have 
heard criticism about New START, that it does not go far enough 
or it does not include countries like China. I have heard 
concern about Russia's compliance generally with other 
international agreements and treaty obligations. And I have 
heard concerns about weapon systems that are not covered by New 
START, which would be in our national security interest to 
bring under an arms control regime. These are all valid issues 
to raise in the context of the discussion about the arms 
control and Russia. However, none of them leads to a good 
reason to let New START lapse, and all of them can be addressed 
while still extending the agreement.
    I have been in a lot of briefings and conversations about 
this agreement, and in none of them--many of them led by 
esteemed current and former national security officials--have I 
heard anyone mention a single thing we gain by letting the 
limitations and transparent measures enshrined in New START 
lapse, nor have I heard a single legitimate cost to staying in 
the agreement.
    I would like to think there is broad consensus that the 
United States should be able to walk and chew gum at the same 
time, and nothing in New START restricts our ability to extend 
it and, also, negotiate in parallel with Russia, China, and 
others about additional concerns or nuclear weapons.
    It is also my understanding that it is the United States 
policy to support nonproliferation efforts and, in fact, that 
we benefit greatly from them. We entered into all these 
agreements because arms control serves our interests. Without 
it, we face greater risks of miscalculation, destruction, and 
loss of human life.
    An arms race is also incredibly costly. At a time when we 
are debating the need for broad investments in infrastructure 
and in education, and areas to address very real safety 
concerns across the country, and to remain globally 
competitive, how exactly we are planning to pay for the 
inevitable arms race that comes from losing the limits to START 
will create real problems.
    The relative peace and stability we feel right now that a 
nuclear attack from Russia is not imminent is due to the fact 
that we have these type of agreements; that we know more about 
what Russia is doing; that they know more about what we are 
doing. It is because of this that our nightly news does not 
speculate as to whether or not we will soon be in a war.
    Why would we ever seek to go back to an era of uncertainty 
about Russia's next move, things we inevitably fear, and 
preparing for the worst? Because that is really what I am 
waiting for, to hear any good reason why we would take on all 
the risks and costs of losing New START for no clear gain.
    I would like to thank the witnesses for being here and 
being willing to provide their expert testimony on this issue.
    I now turn it to the ranking member for his opening 
statement.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you all for being here. I really appreciate it.
    And it is getting toward the end of our time out here, so 
we are all excited, too. So, I just want to be brief today.
    I think this is a really important hearing and I want to 
ensure that our questions are answered. And there are no easy 
answers to this.
    Let me start off by saying that I believe in arms control 
agreements. President Reagan once said that it was his 
``fervent goal and hope that we will some day no longer have to 
rely on nuclear weapons to deter aggression and assure world 
peace''. Maybe that will be in heaven someday; maybe it will be 
here on earth. We would love to get there, but arms control 
agreements help to achieve that goal.
    Limiting the American and Russian nuclear arsenals is a 
good thing. These weapons are more than enough to deter any 
nation from considering an attack on American soil. A carefully 
crafted deal makes the world a safer place, not only on the day 
that it is signed, but for the foreseeable future.
    I agreed with the withdrawal of the U.S. from the 
Intermediate-Range Nuclear Forces Treaty, not because it was 
not a good treaty, but because Russia was clearly violating it. 
With the end of the INF Treaty, the New START Treaty is the 
only game in town. And while it appears that Russia is 
complying with the New START agreement, it still has flaws.
    In 2010, when it was ratified, there were concerns over the 
scope of the agreement, important issues that were left out. 
Furthermore, Vladimir Putin has taken advantage of these flaws 
to aggressively develop new forms of nuclear weapons that fall 
outside of the scope of this arms control agreement, while the 
United States sat idly by on the sidelines.
    Additionally, the treaty does not limit nonstrategic 
nuclear weapons, otherwise known as tactical nukes. When it 
comes to these kinds of weapons, Russia has at least a 10-to-1 
advantage. Last, Russia is close to fielding two new delivery 
vehicles, a nuclear-capable air-launch ballistic missile and a 
sea-launched hypersonic cruise missile, that would not fall 
under the New START's limitations.
    Since 2010, I believe the strategic environment has changed 
significantly. Given Russia's increased stockpile in 
nonstrategic nuclear weapons, it is important to find a way to 
reduce the disparity between the U.S. and Russia on these types 
of weapons. While we agree it is important to reduce Russia's 
nuclear weapons stockpile, the great power competition we find 
ourselves in shows that cold war-style bilateral agreements may 
not be the best approach anymore. New START only restricts two 
nuclear powers: Russia and America. Nowhere in this agreement 
would it be possible to include China, which is rapidly 
developing and modernizing its nuclear arsenal.
    The DIA Director, Lieutenant General Robert Ashley, has 
pointed out that China will likely double the size of its 
nuclear stockpile in the next decade, and that over the last 
year the Chinese have launched more ballistic missile tests 
than the rest of the world combined. If we are to achieve 
successful global nuclear arms control, we must find a way to 
complete a broader, multilateral nuclear arms control agreement 
that includes Russia and China.
    I want to end on this note, given the coinciding timelines 
of the 2020 Presidential election and the expiration of the New 
START. Any hope of extending New START lies solely on the 
shoulders of President Trump's administration because Russia's 
Ambassador to the United States has already stated that they 
will not negotiate in the 16 days that New START remains in 
effect following the 2021 inauguration.
    All this being said, I believe that our priority should be 
to support broader multilateral negotiations with Russia and 
China that bring some of these new systems into an arms control 
agreement while supporting the administration's efforts to 
negotiate on an extension of New START. President Reagan had 
the vision to see a world without the threat of nuclear 
weapons, and I think there is a way that we can get there. And 
I stand ready to help in that effort, even if that takes some 
time.
    Again, there is no easy answer to all this. I look forward 
to hearing from all of you.
    And I yield back.
    Mr. Keating. I thank the ranking member.
    We are very privileged to have an outstanding panel of 
witnesses here today, individuals who are rich in experience in 
the academic area, in the NGO areas, and serving very related 
positions for our country. I want to thank these members for 
their service to our country. I want to thank them for being 
here.
    Mr. Thomas Countryman is the chair of the Arms Control 
Association Board of Directors and former Acting Under 
Secretary of State for Arms Control and International Security.
    Ms. Madelyn Creedon is the president of the Green Marble 
Group and a former Principal Deputy Administrator of the 
Department of Energy's National Nuclear Security 
Administration.
    Mr. Brian McKeon is senior director of the Penn Biden 
Center for Diplomacy and Global Engagement and a former Acting 
Under Secretary of Defense for Policy.
    And Dr. Thomas Karako is a senior fellow with the 
International Security Program and the director of the Missile 
Defense Project at the Center for Strategic and International 
Studies.
    I want to thank all of you for being here. We appreciate 
the time you have committed to this. We ask you to limit your 
testimony to 5 minutes. And without objection, your prepared 
written statements will be made part of the record.
    I will now go to Mr. Countryman for his statement.

 STATEMENT OF THOMAS COUNTRYMAN, BOARD CHAIRMAN, ARMS CONTROL 
                          ASSOCIATION

    Mr. Countryman. I thank Chairman Keating and Ranking Member 
Kinzinger for this opportunity, but especially for your 
interest in this topic. If we are to arrest the decline in 
American global leadership, this Congress must reassert itself.
    For more than 50 years, every U.S. President has proposed 
and pursued negotiations with Moscow to regulate destabilizing 
nuclear competition and reduce the risk of U.S. and allies 
being destroyed in a nuclear war. They sought and concluded a 
series of treaties with strong bipartisan support that have 
made America and the world much safer. They knew that treaties 
require compromise with rivals who do not share our values; 
that treaties are not concessions made to adversaries, but an 
essential component of national security.
    The U.S. used to take pride in leading the world in 
promoting agreements that prevented the proliferation of 
weapons of mass destruction and reduced the risk of their use. 
Our leaders knew that numerical or technological superiority 
could not prevent the United States from destruction in the 
case of nuclear war. Ronald Reagan put this inescapable fact 
most succinctly: ``A nuclear war can never be won and must 
never be fought.''
    The current administration veers away from this tradition, 
to detriment of our national security. Its hostility toward 
international agreements, particularly in arms control; its 
``go big or go home'' approach, which requires agreements to 
address all possible problems, instead of one big one; its 
increasing use of the rhetoric of nuclear dominance and 
invulnerability; its belief that enhancing American security 
requires diminishing others' security, all have increased the 
risk of unintended nuclear war.
    In November, the administration announced, without a 
coherent military or diplomatic plan B, its decision to 
terminate the INF Treaty. Russia's violation made withdrawal 
justifiable, but justifiable is not the same thing as smart. 
The administration has no viable plan to persuade Russia to 
remove its missiles and, instead, pursues development of new 
missiles which are not militarily necessary and would, if 
deployed, likely divide NATO and lead Russia to increase the 
number and type of missiles aimed at NATO targets. Congress 
would be wise to withhold support for a new Euromissile race.
    Worse, the administration has dithered for more than a year 
on extending New START before it expires in 2021. In one of my 
final meetings in 2017 before I left government, I said to the 
Russian Deputy Foreign Minister that the new administration and 
Russia should sign an extension of New START at an early point, 
before some genius in either capital got the idea that 
extension could be used as leverage. He agreed. But what we 
both feared has come to pass, a dangerous fantasy that Moscow 
needs this treaty more than we do, a futile search for 
leverage, and a risk of ending up with no constraints on 
Russia's arsenal.
    The President wants to bring China into trilateral talks on 
a new agreement to limit weapons not covered by New START. Now, 
pursuing talks with other nuclear-armed States and trying to 
limit all types of nuclear weapons is a noble objective, one I 
support in principle, but there is no realistic chance such an 
agreement could be reached, certainly not before New START 
expires. And that leads to the conclusion that this is a 
deliberate poison pill, a pretext for running out the block in 
order to kill New START.
    It would be national security malpractice to discard New 
START, to leave Russian nuclear forces unconstrained, our 
intelligence into their capabilities drastically curtailed, and 
the incentives for costly nuclear competition multiplied. 
Without INF, without New START, there would be no binding 
limits on the two biggest arsenals for the first time in 50 
years. Our difficult nuclear relationship with Russia would be 
more complicated; the risks of renewed nuclear competition 
would grow, and our efforts to mitigate nuclear risks in other 
parts of the world would be more difficult. The conditions for 
an expensive, destabilizing, and dangerous arms race would 
emerge.
    As the chairman and the ranking member of the committee 
have suggested, the immediate step should be a 5-year extension 
of New START to provide a foundation for a more ambitious 
successor agreement. Extension is the only major step the 
President can take with Russia that would simultaneously 
improve our security, open the possibility of addressing other 
difficult issues we have with Russia, and draw bipartisan, if 
not unanimous, approval.
    Thank you.
    [The prepared statement of Mr. Countryman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

        
    Mr. Keating. Thank you, Mr. Countryman.
    Ms. Creedon.

 STATEMENT OF MADELYN CREEDON, NONRESIDENT SENIOR FELLOW, THE 
                     BROOKINGS INSTITUTION

    Ms. Creedon. Good afternoon, Mr. Chairman, Ranking Member 
Kinzinger, and members of the subcommittee. It is, indeed, a 
pleasure to be here today to discuss the much-needed 5-year 
extension to New START and U.S. nuclear policy and forces.
    First, I would like to make clear that I do not represent 
any organization today and that my remarks are strictly my own. 
But I would like to make five brief points.
    First, New START should be extended. No further action is 
needed by the Senate. Both Presidents Trump and Putin just have 
to say yes. Extension of New START is in the national security 
interests of the U.S. because it would continue the limits on 
both Russian and U.S. strategic systems, continue to provide 
transparency and assurance through onsite inspections, 
information exchanges and declarations, insight not readily 
obtained by national technical means.
    The U.S. and Russia, previously the Soviet Union, have a 
history and a tradition of strategic arms limitation agreements 
and the transparency, verification, and compliance mechanisms 
they provide. Without a treaty, we will enter a period of 
uncertainty and risk the possibility of a new strategic arms 
race.
    Second, modernizing the nuclear triad of delivery systems 
and platforms, and life-extending the U.S. nuclear warheads is 
essential to maintaining the safe, secure, and reliable 
stockpile we have today. It is important to note that the 
central limits of New START are the basis for the modernization 
effort that was kicked into high gear by the Obama 
Administration and continued by the Trump administration. This 
modernization is a long-term effort that will extend well into 
the 2050's. The New START central limits are extremely 
flexible, so that each side can ascertain what mix of delivery 
systems and warheads are needed to ensure its own security.
    Third, there is another piece of modernization that is 
often overlooked, but also needs sustained support, and that is 
the National Nuclear Security Administration's nuclear complex. 
This complex provides the manufacturing capability to support 
the nuclear warhead life-extension programs, which, in turn, 
obviates the need to hold large quantities of weapons in 
reserve.
    In addition, the science complex ensures that the stockpile 
can be maintained and adapted without a return to explosive, 
underground nuclear testing. It is a truly amazing fact that 
the advances made in the science of nuclear weapons over the 
last 25 years allow the NNSA labs to now know and understand 
more about the function and performance of nuclear weapons than 
they did in the days of testing. The NNSA complex is old. Much 
of it dates back to the Manhattan Project and the early days of 
the cold war, and it needs to be replaced or refurbished.
    Fourth, we should never forget that, ultimately, it is 
people who sustain our deterrent. Military and civilians of DoD 
and NNSA work to maintain the continuum of deterrence, 
beginning with threat prevention and nonproliferation. They 
need support and we need to ensure that the entire nuclear 
enterprise always has the best and the brightest.
    And fifth, our allies and partners also rely on the U.S. 
nuclear deterrent as the ultimate guarantor of their security 
against nuclear attack, however remote the possibility. As much 
as they want the U.S. deterrent to be safe, secure, and 
reliable, they do not want a new arms race and a return to the 
days of mutual assured destruction.
    As of September 2017, the U.S. has 3,822 warheads in its 
stockpile, more than enough, with another 2,000-plus warheads 
awaiting dismantlement. This is down from the mid-sixties peak 
of 31,255 warheads. We surely do not want a return to those 
days and increase the risk of nuclear war, rather than reduce 
it.
    In conclusion, in my prepared testimony I referenced a 2010 
op-ed by former National Security Advisor Brent Scowcroft and 
Jake Garn, a former Republican Senator from Utah, supporting 
New START. In that piece, they cautioned against seeking a 
silver bullet that solves all problems. New START was under 
consideration at the time that they wrote the op-ed and was 
being criticized for not covering the full range of nuclear 
weapons and delivery systems. In many respects, that is what 
the Trump administration is doing again with respect to 
extending New START, criticizing it for what it is not and was 
never intended to be, a silver bullet treaty. The treaty should 
be extended and time provided to take the next step toward 
stability.
    Thank you for holding this hearing on a very important 
topic that is not discussed enough, and I look forward to your 
questions.
    [The prepared statement of Ms. Creedon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

        
    Mr. Keating. Thank you, Ms. Creedon.
    Mr. McKeon.

 STATEMENT OF BRIAN McKEON, SENIOR DIRECTOR, PENN BIDEN CENTER 
              FOR DIPLOMACY AND GLOBAL ENGAGEMENT

    Mr. McKeon. Mr. Chairman, Ranking Member Kinzinger, thank 
you for the opportunity to be here today to discuss the 
importance of arms control agreements with Russia. I agree with 
much of what was said, if not all of it, by my two colleagues. 
I will try very hard not to duplicate what they said. I will 
focus primarily on New START.
    An extension of New START, which we have discussed already, 
would bring significant benefits to American security, for the 
same reasons the treaty was a good idea in the first place: the 
transparency and predictability that it provides. New START 
contains an inspection and verification regime that includes 
regular exchanges of data; regular notifications, including 
advance notification of launches, and intrusive onsite 
inspections of the military bases on the territory of the other 
party where nuclear forces are based.
    General Hyten, Commander of the U.S. Strategic Command, 
testified last winter that the insight provides by the 
verification measures are ``unbelievably important,'' quote/
unquote, to his understanding of Russian force posture. Without 
a treaty, our confidence levels about the size, location, and 
nature of Russian forces would decrease, and the intelligence 
resources required to monitor such forces would increase, but 
they would not yield information equivalent to that which can 
be obtained through the onsite inspections.
    The treaty limits the number of strategic launchers and 
warheads that each party may deploy as well as a combined limit 
on deployed and non-deployed launchers. This structure provides 
several advantages to the Department of Defense and the 
Department of Energy.
    First, the Commander of the Strategic Command can devise 
the war plans secure in the knowledge about the size and 
location of Russian nuclear forces. Without the treaty, he 
would be required to engage in worst-case planning assumptions, 
which eventually could result in decisions to increase the size 
of deployed forces.
    Second, the Departments of Defense and Energy can plan for 
the recapitalization of the nuclear triad and the DOE 
production facilities with certainty about the requirements for 
U.S. forces well into the next decade. The flexibility in the 
treaty is particularly important at a time when all three legs 
of the triad are aging out and scheduled for replacement at the 
same time. In the event that DoD encounters reliability issues 
with the current force or technical issues in the 
recapitalization program that affects one leg of the triad, we 
can respond by adjusting other legs of the triad to ensure that 
we maintain an adequate deployed deterrent.
    Third, the upper limits prevent the two sides from engaging 
in an unproductive and unnecessary arms race in order to seek 
an advantage against the other. An arms race is not 
foreordained, but it cannot be ruled out, and at times the 
President has threatened it.
    The Trump administration, as has been stated, has not 
committed to an extension and appears focused now on the new 
goal of a trilateral agreement involving the United States, 
Russia, and China. The President's ambition is admirable; the 
only problem is there is almost zero chance of it happening 
during his first term.
    For starters, the architect of this ``go big or go home'' 
strategy is Mr. Bolton, the National Security Advisor, who has 
never seen an arms control agreement that he liked. He 
shepherded one in the Bush 43 administration that limited 
nuclear-deployed arms for exactly 1 day and, then, it expired. 
So, there are reasons to be skeptical about this gambit.
    Second, arms control treaties negotiated between the United 
States and Russia usually took months or years to negotiate, 
and then, the Senate's consideration and review would also take 
months or even longer. A trilateral agreement involving the 
United States, Russia, and China would be vastly more 
complicated.
    Third, there is the simple and practical fact that China is 
not interested. Given the significant disparity in its nuclear 
forces compared to the United States and Russia, even with the 
expansion that China is going through that the ranking member 
identified, the idea that Beijing would negotiate a treaty of 
this sort is fanciful.
    Finally, I am skeptical about this, given the current state 
of bilateral relations between the United States and Russia, 
which I think we would all concede is poor. In an ideal world, 
we would pursue an arms control agenda with Russia that 
includes negotiations on non-strategic weapons, on further 
reductions in strategic systems, and discussions about Russia's 
novel systems. We must have those discussions about the novel 
systems in the context of New START and the New Start 
extension.
    But we also have to recognize we live in a world where 
distrust between the United States and Russia is high, where 
Russia has violated the INF Treaty, illegally occupied Crimea, 
intervened in Eastern Ukraine, and sought to interfere in our 
elections. We have to be realistic about what can be achieved 
in this environment.
    It is realistic to extend New START and, as has been 
stated, doing so is not inconsistent with the pursuit of a more 
ambitious agreement. In fact, it seems illogical to pursue more 
expansive limits on nuclear weapons while contemplating a world 
in which there are no limits between the United States and 
Russia. That would be the classic case of letting the perfect 
get in the way of the very good. The New START agreement is a 
very good agreement, and the United States and Russia should 
pursue an extension.
    Thank you.
    [The prepared statement of Mr. McKeon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Mr. Keating. Thank you, Mr. McKeon.
    Dr. Karako.

   STATEMENT OF THOMAS KARAKO, SENIOR FELLOW, INTERNATIONAL 
SECURITY PROGRAM, AND DIRECTOR, MISSILE DEFENSE PROJECT, CENTER 
            FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Karako. Mr. Chairman, Ranking Member Kinzinger, thank 
you for the opportunity to comment today on nuclear arms 
control. It is a very timely issue. U.S. and Russian officials 
were just meeting about this last week, and, of course, we are 
probably just eight or 9 days away from the potential 
termination of the INF Treaty.
    Now, in 18 months, the United States will face the question 
of whether or not to extend New START, but that decision need 
not be made today. Instead, it is worth considering how this 
moment in the U.S.-Russian relationship, this decision point, 
can best be used to advance some longer-term U.S. goals for 
arms control and defense more broadly.
    With today's hearing, the committee usefully connects the 
question of New START extension to Russia's violation of INF. A 
lot has changed since 2010. Indeed, contempt for agreements 
seems to now have become a defining feature of Russia's 
international identity. And that identity and track record 
should be central to our thinking about future agreements with 
them, including whether and under what circumstances an 
extension should be made.
    Now much commentary on this issue has treated the prospect 
of extension as self-evident, as urgent and necessary to 
forestall an arms race. And Washington has gradually come to 
grips with the reality of renewed, long-term geopolitical 
competition. Many of Russia's violations have also become more 
widely acknowledged. But I wonder, have the implications of 
Russian behavior really sunk in?
    The 2018 Nuclear Posture Review warned that, quote, 
``Concluding further agreements with a State in violation of 
multiple existing agreements would indicate a lack of 
consequences for its non-compliance and thereby undermine arms 
control broadly.'' End quote. Chairman Dunford has expressed 
doubt about New START extension on similar grounds.
    It is also debatable how a lack of extension would 
necessarily lead to further buildup. Rather than occurring in 
response to some sort of U.S. action, Russia's nuclear 
renaissance was initiated separately and prior to more recent 
U.S. modernization efforts. Apart from further uploading ICBMs, 
it is hard to imagine Russia affording much more than they are 
doing already.
    To be sure, there are benefits in the treaty's degree of 
certainty with respect to the category of nuclear weapons 
called strategic, even if the line between strategic and non-
strategic systems grows more artificial by the day. Given that 
Russia seems uninhibited from just about every other form of 
bad behavior, it is worth dwelling on the apparent anomaly that 
they comply with New START while violating just about 
everything else. Moscow may simply not feel the need to violate 
a treaty structured around so-called strategic weapons when 
they can do so much with non-strategics, and with which they 
have, reportedly, a 10-to-1 advantage. These non-strategic 
Russian systems include the INF-violating missile, other sea-
and air-launched missiles, and the transoceanic torpedo.
    Russia appears to value the treaty extension, and we should 
at least try to get some leverage of this value in the service 
of broader defense goals. And one path is to earnestly renew 
negotiations for a comprehensive approach to all nuclear 
weapons. That was urged by the Senate in its 2010 resolution of 
ratification and it was pursued by the Obama Administration. 
Russia showed little interest then, but it was the right goal 
and we should pursue it again.
    Another important goal is that multilateral arrangement 
that includes China, which is, after all--this has changed 
since 2010--now the pacing threat for United States national 
security. Such a move was endorsed by the Russian Deputy 
Foreign Minister mentioned before in 2013. Getting China to 
that table will not be easy. It is not obvious why it would be 
in China's interest to do so, at least not as the table is now 
set. It may require resetting the table, perhaps even working 
with Russia in a post-INF context to field significant forces 
around China.
    In sum, it may be beneficial to extend New START on 
conditional terms, a condition that Russia immediately enter 
into and sustain good-faith negotiations for that more 
comprehensive accord. These negotiations could also advance a 
joint effort to coach China into some kind of regime.
    There are 18 months for these options to be explored. Those 
talks should be given time to proceed, but talking about the 
urgency of unconditional extension I worry could have the 
unintended consequence of undermining the U.S. negotiating 
position and setting back these larger, longer-term goals.
    Thank you for the opportunity to be here today and I look 
forward to questions.
    [The prepared statement of Dr. Karako follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Keating. Thank you, Dr. Karako.
    I will now recognize myself for 5 minutes for questions.
    This is the committee with European-Eurasian jurisdiction. 
So, I want to focus, first, on the relationship we have with 
our NATO allies as it relates to this issue.
    In trips I have had already to Europe talking to our allies 
and discussions I have had back here at home with our NATO 
allies, there was great concern about the way that the U.S. 
approached the INF Treaty and backing away from it. Their 
concerns were more than private. They were public. They were 
concerned they were not consulted ahead of time and brought 
into those discussions with an INF Treaty that affected them 
directly. They were concerned, too, that as we proceeded to do 
that, that we did not take that 6-month period--this is about 
the last--and concentrate at least and demonstrate efforts to 
renegotiate some of that. And that is important, I think, 
because how we deal with these allies is critical to our 
strength in the future and our global security as a whole.
    So, with that in mind, what would it look like in terms of 
our NATO allies if we made a decision not to proceed to this 
agreement and extend it in the first round? Now I noticed that 
was addressed by Mr. Countryman and Ms. Creedon. If you would 
like to comment on that, since you brought up this in your 
testimony?
    Mr. Countryman. Briefly, the NATO alliance is one in which 
the United States should not only be a leader, but a listener. 
And all of the NATO allies have spoken of the importance of 
extension of New START. They all support it.
    On the INF, I think they were disappointed by the degree of 
consultation. There was no interagency process, as it has been 
pursued for many years in Washington, before the President made 
this announcement. While the announcement was not a surprise, 
what you have just said is correct, that there was zero effort 
on the part of the United States to pursue alternatives to the 
disappearance of INF other than building new missiles. So, I 
think the Europeans have a valid criticism there.
    Finally, non-strategic nuclear weapons, of which the United 
States has more than a thousand by the last information I had, 
are an important issue for the NATO alliance as well. And one 
of the things that makes negotiating a new agreement to include 
non-strategic weapons impractical is we have not begun any kind 
of process of consultation with our NATO allies, whose 
interests are directly affected, about what we would put on the 
table with regard to non-strategic weapons.
    Mr. Keating. Ms. Creedon?
    Ms. Creedon. Thank you.
    NATO has consistently, over the course of the last series 
of summits, reiterated that NATO is a nuclear alliance and 
remains such as long as nuclear weapons exist. That said, NATO 
has substantially reduced the number of strategic warheads 
placed on its soil and certainly is not interested in 
increasing those.
    In order to avoid more increases in nuclear arms, 
maintaining the New START Treaty is extraordinarily important 
for NATO. Just recently, the NATO Secretary General has 
reiterated this in a press conference that he held shortly 
after the most recent NATO Russia Council meeting, which NATO 
is still continuing to hold.
    And I would add, it is not just our NATO allies that are 
very interested in ensuring that we continue with New START. It 
is the whole range of our allies in the Indo-Pacific as well.
    Mr. Keating. We talked about leverage briefly, and Dr. 
Karako mentioned that, too. But, given our relationship now 
with Russia, and given the fact that New START could be 
extended just with the Presidents' initiatives to do that, I 
just think it creates more leverage for the U.S. to just move 
forward and demonstrate we are prepared to do this.
    China is now engaged more than ever in training exercises 
with Russia together. Trying to deal with that could, indeed, 
make our initial leverage more difficult. Does anyone want to 
comment on that?
    Ms. Creedon. Well, it might make it more difficult, but I 
think there is also something important to consider. And that 
is the significant disparity currently between the number of 
nuclear warheads and systems that Russia and the U.S. have 
compared to China. So, right now, between the U.S. and Russia, 
they have 90 percent of the world's nuclear delivery systems. 
There is room, there is opportunity, there is need for further 
reductions on the part of those two nations before we can bring 
in China, at least on the strategic arms.
    Mr. Keating. I now recognize the ranking member.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And again, to all of you, thank you for being here.
    And by the way, Mr. Countryman, you were born to be in 
public service with a last name like that.
    [Laughter.]
    And I know everybody tells you that, but I am like, it is 
like when you meet somebody whose last name is ``Butcher'' and 
they are a butcher, or something.
    But thank you all for your service.
    A couple of quick points. Mr. McKeon, I appreciate your 
testimony. I just wanted to make a point. I think just bringing 
up that Ambassador Bolton is involved is not a reason. I 
actually have a great deal of respect for the guy, and I know 
he takes a lot of hits in the media and people use him as a 
foil, but I think he knows foreign policy really well. And so, 
I think that is important to note.
    But let me ask a question to Mr. Karako or Dr. Karako. So, 
let's say we extend New START for infinity, forever, and we 
abide by the current limits forever into the foreseeable 
future. What limits does China have under that?
    Dr. Karako. Oh, of course, the answer is none. And up until 
now, they have managed, China has managed to get away without 
any binding limitation on transparency or anything--and so, 
again, fully stipulating the challenges of getting them to that 
table.
    Mr. Kinzinger. And let me ask you on that, too. So, let's 
say we get them to the table. Let's say we negotiate directly 
with China and we have a China-U.S. treaty, and that freezes us 
under the current limits we are already under under New START, 
for instance. What is the motivation for China to be involved 
if, in fact, we are under the same limits we are already under, 
under another treaty, for them to get into that treaty and 
limit themselves? Would you agree that there is no motivation 
whatsoever, then, at that point?
    Dr. Karako. I would say, in a vacuum with no other context, 
not necessarily. But there are other things going on, 
including, for instance, in the post-INF world, things that the 
United States can and will likely be doing in the region with 
our allies.
    Mr. Kinzinger. So, it looks like, I think the best thing we 
can hope for--and I think we all agree on this, and we probably 
all agree on 90 percent of the issue, anyway, with some 
nuances--but we would obviously like to see a treaty between 
the U.S., Russia, and China, where we are all, in essence, 
living by the same kind of rules. Because if any one of those 
three are out, then, obviously, that is an advantage for them. 
They do not have to abide by that agreement and you have two 
others that are.
    But let me ask you, so we have an agreement with Russia and 
nothing with China. In the next 10 or 20 years, who do you see 
as the biggest threat to the United States from a national 
security perspective, Russia or China?
    Dr. Karako. Well, the typical formulation is Russia may be 
urgent, maybe more provocative, but, of course, the pacing 
threat for the National Defense Strategy in the Pentagon right 
now is China. And so, that is why I tried to emphasize that we 
need to look beyond the 5-years, and as we think about the 5-
year extension, include that long-term perspective in there. It 
is worth making the effort for that longer-term push.
    Mr. Kinzinger. And I think, too, one of the things, if we 
enter a multilateral treaty, which I think we would all love to 
see, but you can begin to put a lot of new things in there as 
far as we are opening up a front; we are concerned about a 
front opening up in space right now. We know some of the 
capabilities that the Chinese and Russians have in space. There 
are cyber issues. There are any number of things that may be 
able to be wrapped into some broader situation. Because, right 
now, when it comes to space, it is kind of like the laws of the 
old pirates of the sea, right? There really is no law. There 
are no rules. And that is something that I think is of as great 
a concern to the United States and national security even as 
nuclear weapons. They are both very intense, but this one is 
not getting enough attention.
    Let me ask you another question. What could we use if we 
want to get China to the table in this, which is all of our 
goal--I think we would all agree--what could we use as leverage 
to get the Chinese to the table? And also, do you think we 
could expect Russia's help in doing so?
    Dr. Karako. It is hard to say we can expect anything from 
Russia, but what I would suggest is that, in the absence of the 
INF Treaty, the United States, through long-range precision 
fires and other things, should be pursuing longer-range strike 
fires from multiple domains. That is the sort of thing that 
will get China's attention.
    Now the administration has said we are only going to be 
pursuing conventional intermediate-range missile forces, and 
that is a good thing. But we can begin the process of holding 
lots of different things at risk in China through that means.
    Mr. Kinzinger. And right now, we know Russia is developing 
new strategic systems to get around our missile defenses. I 
guess my question in my limited seconds here, if you want to 
talk a little about that? But also, do you believe Russia would 
agree to discuss the inclusion of these weapons in any New 
START extension?
    Dr. Karako. In terms of hypersonic glide vehicle kind of 
things?
    Mr. Kinzinger. Yes.
    Dr. Karako. Possibly, but I would not count on it. That is 
the sort of thing that is an emerging threat and it is an 
emerging advantage. At least a couple of years ago, we were a 
little bit behind the curve on that. So, it is something we are 
scrambling to catch up on, both on the strike and defensive 
side, but we are not there yet.
    Mr. Kinzinger. Well, again, I want to thank the chairman 
and thank you all for being here. It is a really important 
issue, and we could stand to learn a lot from all of you. So, 
thank you for being here.
    I yield back.
    Mr. Keating. Thank you.
    The chair recognizes the gentleman from Rhode Island, Mr. 
Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses.
    I want to begin by asking you, Mr. Countryman, what you 
think is the likely both short-term and long-term outcome if we 
do not extend New START in terms of American national security 
interests?
    Mr. Countryman. In the short term, we would immediately 
lose valuable eyes on Russian nuclear capabilities. Also, in 
the short term, and something that does make this urgent, there 
is an important international meeting in the spring of 2020, 
the Nonproliferation Treaty Review Conference that is held 
every 5 years. Traditionally, it has been important for the 
U.S. and Russia to demonstrate that they are reducing their 
arsenals and reducing the nuclear threat to the world in order 
to gain consensus at the review of a treaty that has been 
strongly in our national security interests.
    Neither the U.S. nor Russia at this point can go to that 
conference next year and say with a straight face, ``We have 
done our best to fulfill our legal obligation to keep reducing 
our arsenals.'' That will be a loss for our efforts to prevent 
the proliferation of nuclear weapons to still more countries 
beyond the nine that hold them now.
    In the medium term, you should also expect that Russia will 
be able, because of open production lines, because of its 
possession of heavy missiles, to be able to upload more nuclear 
warheads more rapidly than the United States can with no 
visibility whatsoever from our side.
    And in the long run, I think we are setting the conditions 
for a very expensive and destabilizing nuclear arms race that 
two Presidents have expressed their readiness to conduct.
    Mr. Cicilline. Thank you.
    Ms. Creedon, National Security Advisor Bolton has long 
opposed New START extension. In a 2010 op-ed in the Wall Street 
Journal, he argued that New START would cripple the United 
States' ``long-range conventional warhead delivery capabilities 
and severely constrain our nuclear flexibility,'' and we would, 
I quote, ``pay for this mistake in future conflicts entirely 
unrelated to Russia''. End quote. Did his predictions turn out 
to be true?
    Ms. Creedon. So, I do not think so at all. One of the 
things that is very clear is that the New START Treaty does not 
limit either conventional systems nor does it limit missile 
defense systems. And at the time, there was a lot of, I would 
say pulling of hair and gnashing of teeth, that the New START 
Treaty was going to limit these things, and they do not. It 
does not.
    The other thing is, one of the beauties, if you will, of 
the New START Treaty is that it is an infinitively flexible 
treaty. So, it sets top-line numbers for delivery systems and 
platforms and top-line numbers for operationally deployed 
warheads. And within those top lines, the U.S. has infinite 
flexibility to be able to shape its systems based on what is 
most important to its national security interest at the time. 
So, I think it is an extraordinarily flexible treaty.
    Mr. Cicilline. Thank you.
    My final question is, there has been a lot of discussion 
about a trilateral agreement and including Russia in this 
conversation. It is important to note that China's nuclear 
arsenal numbers about 300 weapons while the United States and 
Russia have more than 1300 and 1400, respectively. And I think 
there have been a number of people who have argued, and I think 
Senator Markey actually, on May 15th, before the Senate Foreign 
Relations Committee, said, ``I think it's pretty clear that the 
attempt to move this to multilateral arms control talks with 
Russia and, then, adding in China is really a poison pill to 
provide an excuse for not extending New START.'' Do you agree 
with that assessment, Mr. Countryman?
    Mr. Countryman. Yes, and the point about getting China into 
the negotiations, nobody has explained what we would like China 
to sign up to and what we would put on the table. Broadly 
speaking, three options. We could ask China to agree to the 
same limit of strategic warheads as the U.S. and Russia, 
thereby giving a U.S. blessing to China quadrupling its nuclear 
forces. We could propose that the U.S. and Russia go down to 
China's level of about 300 warheads, give or take. I think that 
is a great idea, but not achievable anytime in the near future. 
Or we could tell the Chinese, ``Let's lock in forever a 5-to-1 
numerical advantage for the United States over China.'' It is 
impossible to explain why the Chinese would go for that. No 
coherent negotiating strategy that would draw on the Chinese 
has been put forward.
    Mr. Cicilline. And in the few seconds I have left, Mr. 
Countryman, if the United States and Russia began increasing 
their nuclear arsenal, in the absence of an extension of New 
START, what is China's likely response to be?
    Mr. Countryman. The main thing is they will keep doing what 
they are doing, which is building up forces anyway. But the 
incentive to accelerate that growth will be even greater, as 
not only the U.S. and Russia lose transparency about each 
other, the rest of the world, including China, will have no 
clue as to the actual size of the two arsenals.
    Mr. Cicilline. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Keating. The chair recognizes the gentleman from 
Tennessee, Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chair and members of the 
committee.
    I had a couple of questions, and I will just throw them out 
to the committee. And you all just jump in when you want to--
even if you do not want to. I would appreciate it.
    What can we use as leverage to get the Chinese to the table 
on the arms control issue? Not everybody at once.
    Dr. Karako. I guess I would again say, agreeing with what 
has been said just a moment ago, that is not going to be easy. 
Right now, China possesses a considerable advantage on the 
conventional strike in the region. That is their home game. 
That is our away game. And they have got a lot of advantages to 
push around their neighbors.
    I think that what was formerly called the ``pivot'' or the 
emphasis on the Asia-Pacific, and now, with the Trump 
administration, it is the Indo-Pacific, more and more strike 
assets and different operations in that region, making it 
harder for China to push its neighbors around, that would be a 
good thing.
    Ms. Creedon. I think we are going about this a bit wrong. 
So, in the context of nuclear weapons and warheads and delivery 
systems, there is zero incentive for China, given the 
significant disparity between the U.S. and China, and then, 
also, Russia and China. What we really need to think about, 
since we have no history of bilateral-type arrangements with 
China, how do we look at building a relationship initially? And 
so, there are some things that we might do to start to build 
this relationship.
    So, one of the things that we might consider, which would 
also be extraordinarily important to the U.S. Navy, is 
ratification of the Law of the Sea Treaty, for example. China 
has ratified this. They operate under it, and the U.S. has not 
ratified and is at a significant disadvantage in the region. 
So, that would be something that we might do to begin 
relationships under a treaty umbrella.
    The second thing--and this is a little bit out there--but, 
on the Comprehensive Test Ban Treaty, Russia has ratified the 
Comprehensive Test Ban Treaty; China has not, nor has the U.S. 
Basically, China has been waiting to see what we do. OK. Both 
the U.S. and China would like to see North Korea not resume 
testing and freeze its nuclear weapons program.
    Another idea, for instance, might be the U.S. and China 
agreeing to ratify the Comprehensive Test Ban Treaty in 
exchange for DPRK to also sign and ratify the Comprehensive 
Test Ban Treaty.
    So, I think we need to think about this in much more 
creative ways to build that relationship with China.
    Mr. Countryman. I agree with everything that Madelyn 
Creedon has just said. I will also point out that a trilateral 
negotiation in which Russia and China are in the same room with 
a U.S. negotiator does not increase our leverage vis-a-vis 
Russia to have China in the same room. And it does not increase 
our leverage vis-a-vis China to have the Russians in the same 
room.
    It is extremely difficult to immediately jump to the level 
of familiarity with concepts, particularly the crucial concept 
of transparency which U.S. and Russian negotiations have built 
up over decades, extremely difficult to jump to that level with 
the Chinese, for whom transparency is an extremely alien 
concept. We do need to work hard on military-to-military 
channels and honest, closed, secret, strategic discussions 
between United States and Chinese officials about military and 
strategy issues as a first step.
    Mr. Burchett. You said, ``closed''. Do you mean, you are 
talking closed-door meetings?
    Mr. Countryman. I mean getting to understand the way each 
other thinks in a frank way. Yes, closed door.
    Mr. Burchett. I got you.
    What would be the impact on allied national security if we 
failed to extend the New START? Would the U.S. nuclear umbrella 
be stretched way too thin?
    Mr. McKeon. At the current time, Congressman, we have more 
than enough for our deterrent purposes in the war plans. Under 
New START, I would point you to an unclassified report to the 
Congress in 2013, when new deployment guidance was issued by 
President Obama where a statement to that effect was made, that 
we had more-than-adequate forces under the New START limits.
    If there is a buildup in response to the absence of a 
treaty by the Russians and we decide to respond, I do not think 
that would stretch our forces. We can adequately cover our 
deterrence requirements by a buildup. The question it poses to 
STRATCOM and DoD is, if we reduce forces, then, as you adjust 
the war plans to meet our deterrent requirements, that is where 
the harder calculations come in.
    Mr. Burchett. Thank you, Mr. Chairman.
    Mr. Keating. Thank you.
    The chair recognizes the gentleman from California, Mr. 
Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this important subcommittee hearing.
    I would like to drill down a little bit more about whether 
we should move forward or not with regards to the New START. I 
do not know, Mr. McKeon, following your comment, the New START 
covers Russian weapon systems. What do you think, as we see 
their modernization program, what systems we should be most 
concerned about here in the United States?
    Mr. McKeon. Well, there are several issues going on in the 
Russian modernization program. They have been modernizing their 
triad and they are ahead of us in that respect. They are doing 
some work on nuclear weapons, which we really can't talk about 
in this forum.
    Mr. Costa. How rapidly is that taking place?
    Mr. McKeon. Well, the overall modernization, I have a 
quotation from General Hyten in my prepared statement, sir, 
that he anticipates that their overall modernization will be 
completed next year and they are about, I think, 80 percent of 
the way there.
    Mr. Costa. And to what extent does the New START limit 
those efforts?
    Mr. McKeon. New START only has two core limits. It limits 
launchers, the number you can have deployed and non-deployed, 
and strategically deployed warheads. Other than that, there are 
no limits.
    The issues of concern to the United States and our Western 
allies are also the so-called novel systems that President 
Putin has boasted about from time to time--the hypersonic glide 
weapon, it is under development, the so-called doomsday 
underwater torpedo that he has talked about.
    Mr. Costa. How real are those?
    Mr. McKeon. I am two and a half years out-of-date on the 
intelligence, sir, so I do not know the current state of those 
programs. But when I left government, I would say that they 
were not as far along as you might infer from his public 
statements. And in any event, we have never had defenses 
against Russia's strategic systems. Our national missile 
defense has never been designed to stop a Russian system.
    Mr. Costa. Notwithstanding discussions with----
    Mr. McKeon. So, we are already vulnerable to Russian 
strategic weapons, whether they have----
    Mr. Costa. Well, and we have been for some time.
    Mr. McKeon. Correct.
    Mr. Costa. So, are we pretty confident about our 
intelligence, notwithstanding what we can and cannot talk about 
in this hearing, in terms of what new systems they are 
developing?
    Mr. McKeon. I would really hesitate to opine on how 
confident the intelligence community is today. We, obviously, 
have very good satellites and other technological capabilities. 
I think our intelligence about leadership----
    Mr. Costa. Would any other witness like to opine?
    Mr. McKeon [continuing]. Intentions are not that great.
    Mr. Costa. Any of the other witnesses like to opine?
    Ms. Creedon. Well, to that end, I think the thing that we 
also have to remember is that our intelligence is greatly 
enhanced by extending New START because it provides for those 
on-the-ground inspections. It provides for the notifications. 
It provides for displays. It provides, in the context of the 
Bilateral Consultative Commission, an opportunity to discuss 
whether or not new systems are, in fact, covered or not by the 
New START Treaty. So, there is a lot in the context of the New 
START Treaty in the intelligence arena that we would lose if it 
were not extended for the additional 5 years.
    Mr. Costa. I have read that our cost to update our own 
modernization program could extend $50 billion-plus per year 
for a number of years. What are the financial costs if we do 
not, if New START does expire, do you think?
    Mr. Countryman. There is immediately greater spending on 
intelligence, and then, no matter how much we spend on 
intelligence and national technical means, we would not be able 
to substitute for the information we get from notification and 
inspections.
    Mr. Costa. So, what is your view in terms of the cost of 
our own efforts to modernize?
    Mr. Countryman. It is huge, I mean huge. It is probably 
$1.7 trillion over the next 30 years. And I expect that, if the 
demise of New START leads to nuclear planners in both capitals, 
in the absence of solid information, working off of worst-case 
scenarios, they would propose ever greater levels of 
expenditure and armament. That is where we were throughout the 
arms race of the sixties, and I think that is the more 
expensive, riskier status, riskier race we would go back to.
    Mr. Costa. I do not know who feels most confident to talk 
about the Chinese, but what are the odds that we should be 
concerned about China's nuclear arsenal? I mean, they handle it 
differently than we and the Russians do in terms of how they 
store and how they maintain alert status, as I understand it.
    Ms. Creedon. The Chinese arsenal is actually quite small.
    Mr. Costa. Yes, that is what I understand.
    Ms. Creedon. And so, the Chinese advantage is really in the 
area right now of conventional systems, and that is the----
    Mr. Costa. And that is expanding greatly?
    Ms. Creedon. Yes.
    Mr. Costa. We have watched their buildup. It is a dramatic 
increase.
    My time has expired. Thank you very much, Mr. Chairman.
    Mr. Keating. Thank you.
    The chair recognizes the gentleman from Texas, Mr. Wright.
    Mr. Wright. Thank you.
    I want to thank all of you for being here today. Let me 
stress that I have great respect for you, your intelligence, 
your experience. And like everyone up here, I think we should 
pursue an arms control treaty.
    But I remember very vividly a previous U.S. President who 
set conventional wisdom on its head with his approach to 
adversaries and arms control and foreign policy generally, who 
was thoroughly vilified in the press, vilified by the left as a 
reckless cowboy who was going to lead us into nuclear war. But 
what his policies did do is help bring down the Soviet Union, 
which resulted in genuine arms control.
    If I were a betting man, I would bet that none of you 2 
years ago would have predicted that Donald Trump would set foot 
in North Korea, but he did. And no President has set 
conventional wisdom on its head like this one has since Ronald 
Reagan. So, I would caution against utilizing conventional 
wisdom to predict what this President might or might not 
achieve.
    The second thing is--and, Dr. Karako, I want to get your 
thoughts on this for just a second--it seems to me only prudent 
that we would periodically review every treaty we have, whether 
it is an arms control treaty or a trade agreement, whatever it 
might be, to see if they are still working for the American 
people, because no treaty is sacrosanct. Would you agree with 
that?
    Dr. Karako. Sure, in principle. The NATO treaty might come 
close to that, but, in principle, that is right. That is one of 
the reasons that something like New START had a 10-year period 
and with the option of a 5-year extension. It was not 
indefinite.
    Mr. Wright. The purpose of an arms control treaty is not to 
make us feel good; it is to actually control arms. And any of 
you can answer this. Given that we know Russia is developing 
new weapons, and given, as Dr. Karako mentioned, their disdain 
for even respecting agreements, if they do not agree to limit 
new weapons, are not we setting ourselves up for a future 
violation in the future, if we go through with this one? There 
is nothing in their recent behavior that would give us 
confidence that they would treat another agreement any 
differently. Would you all comment, all of you?
    Dr. Karako. I would say, again, that there is that anomaly, 
that Russia has seemingly complied with New START while being 
willing to violate just about everything else. And so, I have 
not suggested that extension of New START would mean that they 
would violate it. On the contrary, because so many things have 
changed since 2010, that disparity that everyone has referred 
to and alluded to, it has a different significance today. It is 
salient. It matters more that they are doing all these things 
that are not covered by the treaty.
    Mr. Wright. I still have a little time. Mr. Countryman, did 
you want to----
    Mr. Countryman. First, I have the greatest respect for 
Ronald Reagan, who came into office not knowing much about 
nuclear weapons and made it a priority to study up from day 
one. And as a consequence, you are absolutely right, he took 
radical, world-changing steps in that direction. When the 
Soviets violated the ABM Treaty by building a radar, he did not 
pull out of the treaty; he did not stop negotiating other 
treaties. He pressed ahead until that violation was corrected, 
and that treaty was preserved. And most importantly, he made 
that sentence, together with Mr. Gorbachev, that no one in the 
current administration is prepared to repeat, that ``nuclear 
war cannot be won and must never be fought.''
    I wish that Russia were the only country in the world that 
took such a cavalier attitude toward international agreements. 
It is important to distinguish between the verification 
mechanisms of INF and New START. Because the INF Treaty 
succeeded in its goal of eliminating all known intermediate-
range missiles, the onsite inspection provisions were allowed 
to lapse. And if we get to some kind of extended agreement that 
addresses the question of intermediate-range missiles in 
Europe, we should find a way to address that problem.
    Mr. Wright. Ms. Creedon? No, you do not have a comment? If 
you do not, that is fine. We can go to Mr. McKeon.
    Ms. Creedon. I am conscious of your time, sir. But the only 
thing I really wanted to add on this is the New START Treaty 
was intentionally and specifically to continue the legacy of 
strategic arms control, and that is what it did. And it defines 
strategic arms within its treaty. If there are going to be new 
weapons that fit within the definition of what is a strategic 
arm, then the New START Treaty would cover it and limit it.
    And that is a very different topic of conversation than 
what most of the conversations are, and most of those 
conversations are about those systems that are not covered by 
this treaty. And that was known at the time it was entered 
into, and it was known at the time all the other strategic arms 
control treaties were entered into. The idea was to have New 
START control the strategic arms, and then, have an opportunity 
to get after all those other things that were not included in 
New START. That is what we still need to do.
    Mr. Wright. And I am out of time unless the chairman wants 
to----
    Mr. Keating. No. The chair recognizes the vice chair of the 
committee, Ms. Spanberger from Virginia.
    Ms. Spanberger. Thank you, Mr. Chairman.
    We have talked a lot about the nuclear forces modernization 
cycle that began in the early 2000's, and that many of these 
modernization programs would be subject to limits under the New 
START Treaty. But Russia is also developing a number of new 
strategic weapon systems that are not currently subject to the 
treaty. These include nuclear-armed hypersonic glide vehicles, 
globe-circling nuclear-powered cruise missiles, and long-range 
nuclear torpedoes. While these weapons are not currently 
included in the treaty, Article 2 allows for emerging offensive 
arms to be considered for inclusion through a bilateral 
consultative process.
    Mr. Countryman, you were very clear that an extension of 
New START should not be contingent on the inclusion of these 
emerging weapon systems. And with that in mind, I am curious if 
you could share, what is the best way that we could address 
these new strategic nuclear weapon systems and capabilities 
into the future?
    Mr. Countryman. The treaty itself contains the means for 
doing so. The Bilateral Consultative Commission can be used by 
both parties to address concerns they have, and specifically, 
Article 2 says that is where you address them. I would like to 
see both Washington and Moscow use the Bilateral Consultative 
Commission aggressively; that is, not just meet once every 4 
months, but stay in session and work hard on these issues, 
because I believe both Russian and American issues can be 
resolved sufficiently to allow extension of New START without 
further problem.
    Ms. Spanberger. And a bit of a broader question, Mr. 
McKeon, for you. When we are looking about emerging 
technologies and future technological capabilities, from your 
perspective, are there things we should be anticipating that we 
are not or are there things we should be anticipating when 
looking at our treaty efforts, be they bilateral or 
multilateral?
    Mr. McKeon. I think the conversation about Russia and China 
and strategic systems needs to be broader than nuclear. And I 
think the ranking member spoke about this when he was still 
here. We have issues with the Chinese and Russians in space and 
in cyberspace, and we have seen reports about Russia mapping 
out where some of the underwater sea cables are. So, there are 
a lot of issues in the context of a broader strategic stability 
conversation that we need to have with both the Russians and 
Chinese.
    Continuing New START, assuming Russian compliance, at least 
gives us some forum to have these conversations with the 
Russians. We have restrictions on mil-to-mil engagements with 
the United States and Russia because of the intervention in 
Ukraine. Those might be reconsidered. We have tried to have 
strategic stability conversations with the Chinese over many 
administrations. So far, they have not been interested. We need 
to take a broader lens, I think, not just on the nuclear 
question, as important as that is.
    Ms. Spanberger. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Keating. Thank you.
    The chair recognizes the gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank each of you for being here.
    And it certainly was positive to see the agreement with 
Congressman Wright and Mr. Countryman about the success that 
President Ronald Reagan achieved, the victory in the cold war 
and the liberation of dozens of countries, and the creation of 
dozens of new countries around the world because of successful 
policies. I appreciate the contributions of each of you, as we 
achieve new policies.
    Dr. Karako, before the United States announced the 
withdrawal from the INF Treaty, they consulted with the allies 
in Europe. NATO issued a statement supporting the U.S. 
withdrawal and agreeing with the U.S. conclusion that Russia 
had violated the treaty. Has the United States consulted with 
its allies about potential extension of New START? Would you 
expect the allies to support a U.S. decision to allow the 
treaty to lapse?
    Dr. Karako. I could not speak for what they would do, other 
than to speculate. But I think that what you just described 
there in terms of consulting with NATO, you are right, they did 
go through--it might not have been exactly when some of our 
allies wanted or as soon, but, eventually, they did speak with 
one voice. And I think it kind of depends on how well we 
communicate the seriousness of what we are trying to 
accomplish.
    Mr. Wilson. And additionally, Dr. Karako, Russia is 
developing new strategic systems designed to get around the 
missile defenses of the United States. These systems do not 
appear to be limited by the New START. How many of these 
systems would Russia need to have an edge over our citizens? 
How useful is the U.S. missile defense system against Russia's 
existing nuclear weapons?
    Dr. Karako. Well, of course, today, and as the Trump 
administration's missile defense review reaffirmed, U.S. 
missile defenses are not directed against or not capable, in 
terms of capability or number, of really dealing with the 
strategic threat from Russia. That has not changed, and we are 
not on a programmatic path to change that.
    These new systems, however, you are right, they are more on 
a regional level and the so-called non-strategic level, 
designed to get at the gaps and seams of what we are relatively 
good at in terms of point or regional ballistic missile 
defense.
    Mr. Wilson. Thank you very much.
    And for each of you, beginning with Mr. Countryman, again, 
who has a unique name, do you believe the United Kingdom and 
France should join the arms control process, as Russia has 
suggested? Do you believe they would be willing to limit their 
nuclear forces or provide transparency into their numbers and 
capabilities?
    Mr. Countryman. On the first part, I think that the 
British, in particular, also the French, have provided more 
transparency than China has, and unprecedented compared to 
their historical record. I do not believe that they would be 
willing to enter into a process right now. What I would like to 
see is increased use of the P5 mechanism in which those five 
countries you mentioned have consulted on nuclear issues with a 
view to increasing transparency, developing trust, exchanging 
views on doctrines. Getting to understand each other is, I 
think, a precondition for what I hope 1 day will be that kind 
of multilateral negotiation.
    Mr. Wilson. Thank you.
    Ms. Creedon.
    Ms. Creedon. So, I certainly agree with Tom. France and the 
U.K. have been extraordinarily open. In fact, they have 
actually been more transparent than even has the U.S. But 
transparency would be a very good first step.
    And I would expand this discussion because what we have not 
talked about Pakistan, India, or Israel, or the DPRK, all of 
whom have nuclear weapons and all of whom could benefit from 
some sort of a transparency process from the outset. Certainly, 
Pakistan, India, and Israel are not transparent, nor is China. 
Even Russia is not terribly transparent, except in the context 
of the New START Treaty. And if we did not have the New START 
Treaty, we would even lose that.
    So, transparency is a very good way to start confidence-
building measures, exchanges of information, so we did not get 
ourselves in some sort of a situation of an accidental nuclear 
war or a misunderstanding that started a nuclear war 
inadvertently.
    Mr. Wilson. And, Mr. McKeon.
    Mr. McKeon. The only thing I would add, sir, to what has 
been said is I would be skeptical the French would ever want to 
get into a multilateral conversation about limitingtheir 
deterrent, which they see as independent and vital to the 
defense of their country. The British might eventually be 
coaxed into such a process.
    Mr. Wilson. And, Dr. Karako.
    Dr. Karako. Yes, the independence of our allies, they have 
been very transparent, but at the same time they have their 
numbers. It is not that significant relative to Russia.
    Mr. Wilson. Thank you, each of you, for being here today.
    I yield back.
    Mr. Keating. And thank you.
    Today's hearing is one of the more important hearings that 
we can have, and it is important to have it at this juncture. 
We really worked hard as a committee to get this done before we 
broke, so that we can do all we can do to move the ball forward 
on an extension of New START, whatever form that may take.
    There was a great deal of agreement on what the challenges 
we have and the goals that we should achieve, some differences 
on how we can get there, but that agreement is important. This 
is, indeed, an issue that is an existential threat, much as it 
was years ago. The human costs that are at stake are enormous.
    And I think, indeed, the situation is even more dangerous 
than before. With the extension of artificial intelligence and 
the prospect of miscalculation greater, the threat is greater.
    Also, as a member of the Armed Services Committee, it is 
extremely important, too, because we have great challenges 
ahead of us in that committee as well and great costs attendant 
to those challenges. The modernization effort that has been 
mentioned is one that will be expensive. We have to look at how 
we can curb the overall expenditures that we have, so that we 
can accomplish that. Because we have new threats, not just in 
modernization of current types of assets, but expansion in the 
cyber area, into space, and, as we have mentioned, in the 
ocean.
    And the last point I would make is this: that extending New 
START is important. We can do other things that we discussed 
here while moving ahead and showing the U.S. is taking that 
initiative themselves. Our profile around the world right now, 
as we have moved away from the INF Treaty, although justified, 
yet something we could have executed in a better manner, casts 
a view of us around the world, as well as the moving away from, 
which we did not discuss, the JCPOA, a treaty, not a treaty, 
but an agreement that included Iran, which, indeed, was very 
transparent and actually a model of transparency compared to 
our other agreements.
    It is important, in the wake of that, that we move ahead 
and be the leaders on a New START extension, so that the U.S. 
can be where it should be, in a position of global leadership 
in arms control.
    So, I thank you. I thank you, Mr. Countryman, Ms. Creedon, 
Mr. McKeon, Dr. Karako, for your participation in this 
important agreement. We look forward to hearing from you in the 
future. Feel free to have any input you can on this important 
matter with this committee.
    And with that, I will adjourn the committee.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            



                                 <all>
</pre></body></html>
